1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

Ian Heath Gershengorn
Tel +1 202 639 6869
IGershengorn@jenner.com

November 11, 2020

VIA EMAIL
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Tofig Kurbanov v. UMG Recordings, Inc., et al., No. 20-503
To the Clerk of the Court:
We represent Respondents UMG Recordings, Inc., et al., in the case referenced above. Petitioner
Tofig Kurbanov filed his petition for a writ of certiorari on October 12, 2020, and this matter was
placed on the docket on October 16, 2020. Respondents’ brief in opposition to the petition is due
on November 16, 2020. Pursuant to Supreme Court Rule 30.4, we write to request a twenty-two
(22) day extension of time to file a brief in opposition to the petition in this case.
In light of the press of other business, counsel requires additional time to fully respond to the
arguments presented in the Petition. Counsel for Petitioner has stated that they consent to this
request.
For these reasons, we respectfully request a twenty-two (22) day extension of time, until
December 8, 2020, to file a brief in opposition to the petition.
Respectfully,
/s/ Ian Heath Gershengorn
Ian Heath Gershengorn
cc: All counsel of record (via email)

CHICAGO

LONDON

LOS ANGELES

NEW YORK

W ASHINGTON, DC

WWW.JENNER.COM

